OIG Investigative Reports, Ex-Financial Aid Director of Manhattan College Pleads Guilty to Defrauding Department of Education
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
FOR IMMEDIATE RELEASE:
New York Thursday, February 28, 2002
For Information Contact: U.S. ATTORNEY'S OFFICE
MARVIN SMILON, HERBERT HADAD
PUBLIC INFORMATION OFFICE
(212) 637-2600
(718) 422-1870
JONATHAN LEIKEN
(914) 993-1914
EX-FINANCIAL AID DIRECTOR OF MANHATTAN COLLEGE PLEADS GUILTY TO DEFRAUDING DEPARTMENT OF EDUCATION
JAMES B. COMEY, the United States Attorney for the Southern District of New York, announced that RAYMOND B. KRULL pled guilty in White Plains federal court today to a one-count felony charging him with defrauding the Department of Education out of more than $200,000.
KRULL admitted in a court proceeding before Magistrate Judge GEORGE A. YANTHIS that, while he was the Financial Aid Director for Manhattan College in the Bronx, he completed a series of fraudulent federal student loan applications in his own name and received in excess of $200,000 to which he was not entitled.
KRULL faces a maximum sentence of five years in prison when he is sentenced before United States District Judge CHARLES BRIEANT on July 23, 2002.  Under the terms of his plea agreement  with the Government, KRULL must pay restitution in the amount of approximately $203,0000.
KRULL was released on a $50,000 personal recognizance bond. KRULL now lives in Nashville, Tennessee.
Mr. COMEY stated: This is an important conviction, both because it involves a striking abuse of trust and because the money stolen was intended for deserving college students
Mr. COMEY praised the investigative efforts and assistance of the Department of Education, Office of the Inspector General, and the FBI.
Assistant United States Attorney JONATHAN LEIKEN is in charge of the prosecution.
Top
Printable view
Share this page
Last Modified: 03/03/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov